              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections and Special Inquiries




Inspection Report

The Consolidated Terrorism Watchlist
Nomination Process at the Department
of Energy




DOE/IG-0778                                 October 2007
THE CONSOLIDATED TERRORISM WATCHLIST
NOMINATION PROCESS AT THE DEPARTMENT OF ENERGY

TABLE OF
CONTENTS


              OVERVIEW

              Introduction and Objective     1

              Observations and Conclusions   2


              DETAILS OF FINDINGS

              DOE Watchlisting               3


              RECOMMENDATIONS                5


              MANAGEMENT COMMENTS            5


              INSPECTOR COMMENTS             5


              APPENDIX

              A. Scope and Methodology       6

              B. Management Comments         7
Overview

INTRODUCTION    Placing terrorists on watchlists is a key factor in the global war on
AND OBJECTIVE   terrorism. In 2003, the Terrorist Screening Center was established
                under Homeland Security Presidential Directive-6 to consolidate
                the United States Government’s terrorism watchlisting activities.
                The Terrorist Screening Center maintains the Consolidated
                Terrorism Watchlist, a sensitive unclassified database of terrorism
                information obtained from the National Counterterrorism Center
                (NCTC) and the Federal Bureau of Investigation (FBI). The
                NCTC provides information regarding international terrorists and
                the FBI provides purely domestic terrorist information. The FBI’s
                role was formalized in a September 16, 2003, Memorandum of
                Understanding between the Attorney General, the Secretary of
                Homeland Security, the Secretary of State and the Director of
                Central Intelligence implementing Homeland Security Presidential
                Directive-6 which stated that agencies will continually provide all
                “Purely Domestic Terrorist Information” to the FBI.

                The goal in creating the Terrorist Screening Center was to increase
                sharing of information at all levels of government in order to have
                the most comprehensive and up-to-date information about potential
                terrorist threats. The information maintained by the Terrorist
                Screening Center is available to appropriate Federal, state, local,
                tribal, and territorial government officials for screening purposes.

                The NCTC is an interagency joint-venture under the Office of the
                Director of National Intelligence and serves as the primary U.S.
                Government organization for analyzing and integrating all
                intelligence possessed or acquired by the Government pertaining to
                international terrorism and counterterrorism. The NCTC maintains
                a classified database of known and suspected terrorists that is
                accessible by appropriate officials and entities.

                To ensure that the NCTC has the most accurate and up-to-date
                terrorist information, Homeland Security Presidential Directive-6
                requires that “executive departments and agencies shall, to the
                extent permitted by law, provide to the Terrorist Threat Integration
                Center [now NCTC] on an ongoing basis all appropriate Terrorist
                Information in their possession, custody, or control.” Terrorist
                Information is defined as information about individuals known or
                suspected to be or have been engaged in conduct constituting, in
                preparation for, in aid of, or related to terrorism.




Page 1                                    The Consolidated Terrorism Watchlist
                                          Nomination Process at the
                                          Department of Energy
                   The Intelligence Community Inspectors General Forum agreed to
                   conduct a multi-agency review of the processes for nominating
                   individuals to the Consolidated Terrorism Watchlist. Thus, the
                   objective of our inspection was to review the DOE process for
                   Watchlist nominations.

OBSERVATIONS AND   We found that DOE did not have a formal process for nominating
CONCLUSIONS        individuals to the Consolidated Terrorism Watchlist and had never
                   directly nominated anyone to the Watchlist. In fact, Department
                   officials asserted that there is a limited likelihood that DOE would
                   ever be in a position to do so. We concluded, however, that given
                   the current terrorism/security concerns and DOE’s highly sensitive
                   mission, DOE should formalize such a process which would
                   include providing employee awareness training on watchlist issues.




Page 2                                              Observations and Conclusions
Details of Findings

DOE WATCHLISTING            Within DOE, the Office of Intelligence and Counterintelligence is
                            the responsible entity for nominating individuals to the
                            Consolidated Terrorism Watchlist in the event appropriate
                            information is acquired. The Intelligence Directorate conducts
                            technical analyses of foreign intelligence for DOE, including the
                            National Nuclear Security Administration, and the United States
                            Intelligence Community. The Counterintelligence Directorate is
                            responsible for protecting DOE information against espionage or
                            other intelligence activities by foreign entities. DOE employees
                            across the complex are required to report to the local or servicing
                            Counterintelligence Directorate office information concerning
                            actual or suspected espionage, sabotage, or terrorist acts against the
                            United States. We were advised by officials from both
                            Directorates that they were unaware of DOE ever having acquired
                            information that would have triggered a nomination to the
                            Consolidated Watchlist.

Intelligence Directorate Responsible DOE officials stated that because DOE does not
                         engage in primary covert collection, any terrorist names that it
                         might normally acquire in its technical analyses role would come
                         from some other member of the Intelligence Community. As
                         indicated previously, these other agencies are required to nominate
                         such individuals to the Consolidated Terrorism Watchlist pursuant
                         to Homeland Security Presidential Directive-6.

                            However, we determined that pursuant to Executive Order 12333,
                            the Intelligence Directorate can engage in limited overt collection
                            activities. Thus, it appears possible that the Directorate could
                            acquire information concerning terrorists as part of these
                            responsibilities.

Counterintelligence         We determined that although the primary mission of the
Directorate                 Counterintelligence Directorate is to protect against espionage, the
                            Directorate could potentially acquire terrorist information related
                            to DOE and National Nuclear Security Administration activities.
                            However, the Counterintelligence Directorate has essentially no
                            investigative authority and is required to provide information that
                            it develops concerning espionage or terrorist activity within the
                            United States to the FBI. The FBI, with clear jurisdiction in these
                            circumstances, is responsible for the nomination of individuals to
                            the Consolidated Terrorism Watchlist. The FBI is to provide
                            information directly to the Terrorist Screening Center regarding
                            purely domestic terrorism and is to provide any information
                            regarding international terrorists to the NCTC.




Page 3                                                                     Details of Findings
Conclusion   Given the roles and authorities of the Intelligence Directorate and
             Counterintelligence Directorate and statements made by Office of
             Intelligence and Counterintelligence officials, it appears unlikely
             but possible that the Directorates have or may ever acquire
             information on an individual who should be nominated to the
             Consolidated Watchlist. In the event that either Directorate
             acquires such information, they are required to provide that
             information to the NCTC or FBI.

             We interviewed officials at the NCTC and Terrorist Screening
             Center regarding DOE watchlisting issues. An NCTC official
             advised us that given the Intelligence Directorate’s limited
             collection capabilities and, as a result its limited opportunities to
             make a nomination, there was little need for it to develop an
             extensive nominating process. However, the NCTC official
             advised that, in her judgment, the Intelligence Directorate should
             formalize a process for contacting NCTC to seek guidance in the
             event that it acquires information pertinent to U.S. watchlisting
             efforts.

             The official further advised that because the FBI is to submit
             relevant information to the NCTC, there should be no need for the
             Counterintelligence Directorate to make direct nominations. An
             FBI official at the Terrorist Screening Center confirmed that given
             the formal relationship between the Counterintelligence
             Directorate and the FBI, the FBI should make any Watchlist
             nominations that it deems appropriate. Based on our request, the
             Terrorist Screening Center attempted to determine whether
             information provided by DOE has ever been used in any Watchlist
             nominations. The results were inconclusive.

             We recognize DOE’s relationship with the FBI and that
             appropriate information is to be referred to the FBI and the
             Terrorist Screening Center. Nevertheless, we concluded that DOE
             and national security interests would be best served if the
             Counterintelligence Directorate formalized a process to ensure that
             appropriate information is nominated for the Watchlist.

             Some Office of Intelligence and Counterintelligence officials
             acknowledged having limited familiarity with watchlisting issues.
             We concluded that the appropriate Department analysts and
             officials would benefit from awareness training to ensure that they
             are sensitive to information that should be incorporated into the
             Watchlist and the related procedures for doing so.




Page 4                                                       Details of Findings
RECOMMENDATIONS   We recommend that the Director, Office of Intelligence and
                  Counterintelligence:

                  1. Develop a formal Department of Energy process for
                     nominating personnel to the Consolidated Terrorism Watchlist;
                     and,

                  2. Provide awareness training to all employees who could acquire
                     information relating to individuals who should be nominated to
                     the Consolidated Terrorism Watchlist.

MANAGEMENT        Management said that it initiated action to develop a Memorandum
COMMENTS          of Understanding with the NCTC and the Terrorist Screening
                  Center and a process for nominating individuals to the
                  Consolidated Terrorism Watchlist. Management also said that it
                  will review current practices and implement appropriate Watchlist
                  awareness training for all current and newly-hired personnel with a
                  counterterrorism mission. We have included management’s
                  comments in their entirety at Appendix B.

INSPECTOR         We found management’s comments to be responsive to our
COMMENTS          report. However, because the comments did not include planned
                  corrective actions with target completion dates, a Management
                  Decision is required.




Page 5                                                       Recommendations
                                                             Management and
                                                             Inspector Comments
Appendix A

SCOPE AND     This review included interviews with officials at DOE, the NCTC
METHODOLOGY   and the Terrorist Screening Center. We reviewed applicable
              policies pertaining to the United States Government’s watchlisting
              activities. Also, pursuant to the “Government Performance and
              Results Act of 1993,” we examined performance measurement
              processes as they related to watchlisting. This inspection was
              conducted in accordance with “Quality Standards for Inspections”
              issued by the President’s Council on Integrity and Efficiency.




Page 6                                               Scope and Methodology
Appendix B




Page 7       Management Comments
                                                                    IG Report No. DOE/IG-0778

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message clearer to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland Smith at (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

               U.S. Department of Energy Office of Inspector General Home Page

                                     http://www.ig.energy.gov

   Your comments would be appreciated and can be provided on the Customer Response Form
                                  attached to the report.
